   U.S. Department of the Interior
   Office of Inspector General




              AUDIT REPORT


  OFFICE OF SURFACE MINING RECLAMATION
  AND ENFORCEMENT FINANCIAL CONTROLS
OVER THE TECHNICAL ASSISTANCE AGREEMENT
      WITH THE REPUBLIC OF INDONESIA


               REPORT NO. 97-I-165
                DECEMBER 1996
                   United States Department of the Interior
                              OFFICE OF INSPECTOR GENERAL
                                      Washington, D.C. 20240




TO:

FROM:


SUBJECT SUMMARY:               Final Audit Report for Your Information - “Office of Surface Mining
                               Reclamation and Enforcement Financial Controls Over the Technical
                               Assistance Agreement With the Republic of Indonesia” (No. 97-I-165)

Attached for your information is a copy of the subject final audit report. The objective of the audit
was to determine whether the Office of Surface Mining Reclamation and Enforcement had
established and implemented adequate controls to ensure compliance with the financial management,
accounting, and reporting requirements of the grant agreement with the Bureau of Environment and
Technology of the Ministry of Mines and Energy, Republic of Indonesia.

We found that, overall, Surface Mining’s internal controls were adequate to ensure that the
accounting records on direct costs were accurate, properly supported, and in accordance with the
terms of the technical assistance agreement with the Republic of Indonesia. However, we concluded
that Surface Mining needed to strengthen its internal controls over the preparation of the quarterly
financial reports and the computation of overhead costs. We recommended that Surface Mining
establish and implement procedures to ensure that: (1) administrative overhead amounts are recorded
and computed accurately; (2) direct and overhead costs included in the quarterly reports are
reconciled to accounting system data; and (3) program staff comply with provisions for the
calculation of overhead costs and the preparation of the quarterly reports.

Surface Mining concurred with the report’s three recommendations, which will be referred to the
Assistant Secretary for Policy, Management and Budget for tracking of implementation.

If you have any questions concerning this matter, please contact meat (202) 208-5745 or
Mr. Robert J. Williams, Acting Assistant Inspector General for Audits, at (202) 208-4252.



Attachment
                                                                         E-IN-OSM-011-96


              United States Department of the Interior
                          OFFICE OF INSPECTOR GENERAL
                                  Washington, D.C. 20240




                                 AUDIT REPORT

Memorandum

To:        Director, Office of Surface Mining Reclamation and Enforcement

From:      Robert J. Williams
           Acting Assistant Inspector General for Audits

Subject:   Audit Report on Office of Surface Mining Reclamation and Enforcement
           Financial Controls Over the Technical Assistance Agreement With the Republic
           of Indonesia (No. 97-I-165)

                                 INTRODUCTION

This report presents the results of our limited review of the Office of Surface Mining
Reclamation and Enforcement’s financial management, accounting, and reporting controls
for funds received under its technical assistance agreement with the Bureau of Environment
and Technology of the Ministry of Mines and Energy, Republic of Indonesia. The objective
of the review, which was initiated in response to a February 6, 1996, request from Surface
Mining’s Deputy Director, was to determine whether Surface Mining had established and
implemented adequate controls to ensure compliance with the financial management,
accounting, and reporting requirements of the agreement.

BACKGROUND

In February 1995, the Office of Surface Mining Reclamation and Enforcement entered into
a $3.2 million reimbursable agreement with the Bureau of Environment and Technology of
the Ministry of Mines and Energy, Republic of Indonesia, for a project to provide technical
assistance to the Republic to develop, establish, and implement policy, regulations, and
guidelines to control environmental effects caused by mining activities in Indonesia. The
project is being funded by a portion of a $260.5 million loan to the Republic from the
International Bank for Reconstruction and Development.

The agreement stipulates that the Republic provide periodic advance payments to Surface
Mining to cover necessary and agreed-to project expenditures. Specifically, Surface Mining
is to be reimbursed for all direct costs of the services provided and for administrative costs
based on a fixed rate of 22.5 percent of the direct costs, excluding certain equipment items
identified in the agreement. In addition, the agreement states that the Assisting Agency is
to “keep accurate and systematic accounts and records . . . in such form and detail as will
clearly identify all relevant time charges and cost, and the bases thereof. ” Further, the
agreement requires Surface Mining to submit to the Republic and the Bank quarterly reports
that include itemized project expenditures for the previous quarter and an itemized estimate
of additional funds requested.

Surface Mining’s responsibility for the project is specified as follows: (1) its resident Project
Director in Indonesia has overall field administrative responsibility; (2) its Finance Center
staff in Denver, Colorado, accounts for project costs and funds received; and (3) the program
staff in the headquarters office in Washington, D. C., provides overall project coordination.

SCOPE OF AUDIT

Our audit addressed Surface Mining’s internal controls established and implemented to
ensure compliance with the agreement’s financial management, accounting, and reporting
requirements from inception of the agreement (February 1995) through December 31, 1995.
To determine the adequacy of the internal controls, we reviewed accounting and billing
reports, quarterly reports, supporting documentation for the receipt and disbursement of
funds, calculations and composition of overheard charges, documentation flow, and the
system for preparing selected accounting and financial reports. Since Surface Mining
requested that our audit focus on a review of controls over project costs, we did not verify:
(1) the accuracy of Surface Mining’s overhead rate of 22.5 percent because it was established
as a fixed rate by the agreement and (2) estimates of its additional funding requirements that
were included in the quarterly reports. The review was performed at Surface Mining’s
headquarters office in Washington, D.C. In addition, we contacted Surface Mining’s Finance
Center in Denver and the Project Director in the Republic of Indonesia regarding specific
accounting and reporting issues.

Although we evaluated the effectiveness of Surface Mining’s financial management,
accounting, and reporting internal control structure over the agreement and tested Surface
Mining’s compliance with certain provisions of the agreement, it should be noted that
because of inherent limitations in any system of internal controls, losses, noncompliance, or
misstatements may occur and not be detected.

PRIOR AUDIT COVERAGE

Neither the Office of Inspector General nor the General Accounting Office has issued any
reports within the past 5 years concerning Surface Mining’s financial management,
accounting, and reporting internal controls related to its agreement with the Bureau of
Environment and Technology of the Ministry of Mines and Energy. However, the Office of


                                                2
Inspector General has issued five reports during this period on Surface Mining’s financial
statements, as required by the Chief Financial Officers Act of 1990. The most recent report,
“Office of Surface Mining Reclamation and Enforcement Financial Statements for Fiscal
Years 1994 and 1995” (No. 96-1-400) 3 issued in February 1996, stated:

    Surface Mining’s internal control structure in effect on September 30, 1995, was
    sufficient to safeguard assets against loss from unauthorized use or disposition;
    ensure that transactions were executed in accordance with laws and regulations;
    ensure that transactions were properly recorded, processed, and summarized; and
    provide reasonable assurance that any losses, noncompliance, or misstatements that
    are material to the financial statements would be detected.

The four prior reports contained similar conclusions regarding Surface Mining’s internal
control structure.

                              RESULTS OF AUDIT

We found that, overall, the Office of Surface Mining Reclamation and Enforcement’s
internal controls were adequate to ensure that the direct project costs recorded in the
accounting records were accurate, properly supported, and in accordance with the terms of
the technical assistance agreement with the Republic of Indonesia. However, we concluded
that Surface Mining needs to strengthen its internal controls over preparation of the quarterly
financial reports and the computation of overhead costs to ensure that: (1) costs reported in
the quarterly reports submitted to the Republic and the International Bank for Reconstruction
and Development agree with the costs recorded in the accounting records and (2)
administrative overhead costs are properly computed and accurately recorded. In addition,
we concluded that Surface Mining needs to improve coordination between the Project
Director and other program staff in the Denver Finance Center and the Washington
headquarters office to ensure timely identification and resolution of issues related to the
agreement’s financial management, accounting, and reporting requirements.

The agreement (Appendix B and part 6.5(c)) requires Surface Mining to submit, to the
Republic and the Bank, quarterly reports that include itemized project expenditures for the
previous quarter. In addition, the agreement (part 3 .5) states that the Assisting Agency is
to “keep accurate and systematic accounts and records . . . in such form and detail as will
clearly identify all relevant time charges and cost, and the bases thereof. ” We found,
however, that Surface Mining did not have adequate controls to ensure that costs recorded
in the billing statements agreed with costs in the quarterly reports. As a result, the
expenditures and unexpended obligations included in the quarterly reports prepared by the
Project Director and provided to the Republic and the Bank for the periods ending September
30 (the first report submitted) and December 31, 1995, did not fully agree with the



                                               3
corresponding amounts included in the project billing statements prepared by the Finance
Center for the respective time periods. This information is summarized as follows:




Expenditures       $354,160   $448,575 ($94,415)       Not Reported $942,328     N/A

Obligations        $791,207   $669,757    $121,450     $1,082,949   $1,125,273 ($42,324)


The Project Director could not provide a complete reconciliation of the variances between
the quarterly reports and the billing statements. The Project Director said that these
variances occurred, in part, because he had used the information available at the Indonesia
Project Office in preparing the quarterly reports “because of the long delay [in] getting
accounting data from Denver at the beginning of the project. ”

We also found that Surface Mining could not support its calculation of administrative
overhead costs. The technical assistance agreement provides for Surface Mining to be
reimbursed for its administrative overhead costs based on a fixed rate of 22.5 percent of
direct costs, excluding certain equipment items. We found, however, that Surface Mining
did not have adequate controls to ensure that the fixed rate was properly applied to the
appropriate direct cost base. According to the program staff in the headquarters office that
is responsible for overseeing the receipt and disbursement of funds and billing statement
information, the overhead costs included in the billing statements were computed by the
Project Director in Indonesia. However, neither the Project Director nor the Washington
headquarters and Denver Finance Center program staff were able to provide adequate
information in support of Surface Mining’s overhead calculation. For example, Surface
Mining was unable to specifically explain how the overhead amounts included in the billing
statements for the periods ending September 30 and December 31, 1995, were calculated,
including what equipment items and costs were excluded from the direct cost base before
applying the 22.5 percent overhead rate. Furthermore, the amount included in the billing
statement at September 30, 1995 ($104,127), did not agree with the amount reported by the
Project Director ($67, 143) in his quarterly report to the Republic for the same period. We
could not analyze the difference between the quarterly report and the accounting billing
statement at December 31, 1995, because the quarterly report did not include amounts
expended during the quarter.

We concluded that these conditions existed because Surface Mining had not required the
Project Director to submit the quarterly reports, including documentation supporting
adjustments to recorded costs and overhead calculations, to Surface Mining’s Washington
headquarters office or to the Denver Finance Center for review to ensure that the reported
costs were accurate and adequately supported and to ensure that administrative overhead was

                                             4
properly computed and recorded. We also believe that a contributing factor to this situation
was that Surface Mining program officials did not fully understand the agreement’s overhead
calculation process. Consequently, there was minimal assurance that direct and overhead
costs reported in the quarterly reports were accurate and supported.

Recommendations

We recommend that the Director, Office of Surface Mining Reclamation and Enforcement,
establish and implement procedures to ensure that:

    1. Administrative overhead amounts recorded in the accounting billing statements are
computed accurately.

     2. Direct and overhead costs included in the quarterly reports are reconciled to
information in the accounting billing statement and the official accounting system and
reviewed by either headquarters or Finance Center staff before the quarterly reports are
provided to the Republic of Indonesia and the International Bank for Reconstruction and
Development.

      3. All program staff comply with the terms and conditions of the technical assistance
agreement pertaining to the calculation of administrative overhead costs and preparation of
the quarterly reports.

Office of Surface Mining Reclamation and Enforcement Response and
Office of Inspector General Reply

The October 21, 1996, response (Appendix 1) to our draft report from the Acting Director,
Office of Surface Mining Reclamation and Enforcement, concurred with all three
recommendations and identified controls and procedures that are sufficient to ensure
compliance with the financial management, accounting, and reporting requirements of the
agreements. Based on the response, we consider the three recommendations resolved but not
implemented. Accordingly, the unimplemented recommendations will be referred to the
Assistant Secretary for Policy, Management and Budget for tracking of implementation, and
no further response to the Office of Inspector General is required (see Appendix 2).

The legislation, as amended, creating the Office of Inspector General requires semiannual
reporting to the Congress on all audit reports issued, the monetary impact of audit findings,
actions taken to implement audit recommendations, and identification of each significant
recommendation on which corrective action has not been taken.

We appreciate the cooperation of Surface Mining personnel in the conduct of our audit.
                                                                                APPENDIX 1
                                                                                Page 1 of 4

                        United States Department of the Interior


IN REPLY REFER TO:




          Memorandum


         To:          Acting Assistant Inspector General for Audits

          From:       Acting Director

          Subject:   Response to Draft Audit Report on Office of Surface Mining
                     Reclamation and Enforcement Financial Controls Over the Technical
                     Assistance Agreement with the Republic of Indonesia (Assignment
                     No. E-IN-OSM-011-96)

         This is in response to your September 19, 1996 memorandum and draft audit
         report entitled “Office of Surface Mining Reclamation and Enforcement Financial
         Controls Over the Technical Assistance Agreement with the Republic of Indonesia”
         (Assignment No. E-IN-OSM-011-96). We appreciate the opportunity to review the
         draft audit report and to provide our comments.

         We have completed our review and concur with the report’s findings and
         recommendations. Our specific plans for implementing your recommendations are
         explained in the attachment. The Assistant Director for Program Support and the
         Assistant Director for Finance and Administration will be the responsible officials
         for carrying out the implementation plan.

         I would like to point out that OSM has recently realized the benefits of the audit
         exercise. Our end-of-year budget review for Fiscal Year 1996 indicated a potential
         source of confusion regarding reimbursable accounts and highlighted a need to
         clearly distinguish reimbursable funds from appropriated funds for purposes of
         budgetary decision making. In order to eliminate possible confusion, a separate
         configuration for displaying funding for the Indonesia project has been developed
         by our Office of Strategic Planning and Budget. This will allow the funds to be
         clearly separated for budget planning purposes.

         On a related follow up matter, because of the need to ensure that OSM spends no
         more than the funds allocated under the technical assistance agreement, we would
         request your assistance in undertaking another review prior to the conclusion of
         the program.
                                                                 APPENDIX 1
                                                                 Page 2 of 4



This review should rescheduled so that sufficient time is available to OSM to
make any necessary changes in controls or procedures. The project is currently
scheduled to end on May 1, 1998.

The Indonesian Ministry of Finance, which will have lead responsibility for any final
review, must supply a final accounting to the World Bank within six months of the
end of the Indonesian Fiscal Year in which the project ends. The Indonesian fiscal
year begins in April, so the Ministry of Finance must complete its review within six
months of the close of the Fiscal Year which begins in April 1998 and ends in
April 1999. Any additional Inspector General Review should comport with this
time frame.

Please contact George Stone, Audit Coordinator, Office of Strategic Planning and
Budget, at (202) 208-7840 if you have any questions concerning our response and
to coordinate the scheduling of subsequent audits of the technical assistance
agreements.


Attachment


cc:   Assistant Secretary - Land and Minerals Management




                                       7
                                                                     APPENDIX 1
                                                                     Page 3 of 4



         Planned Action on Recommendations in OIG Draft Audit Report on
     Office of Surface Mining Reclamation and Enforcement Financial Controls
                     Over the Technical Assistance Agreement
                          With the Republic of Indonesia
                        (Assignment No. E-IN-OSM-011-96)

The table below reflects the actions planned to implement the recommendations
and a projected target date for completion of those actions. The officials
responsible for plan implementation are the Assistant Director for Program Support
(PS), and the Assistant Director for Finance and Administration (FA).


                                                             Projected      Action
      Recommendation                  Planned Action         Completion     Official
                                                                Date

 Administrative overhead        Apply controls to ensure     12/31 /96    AD/PS
 amounts recorded in the        that the fixed rate is
 accounting billing             properly applied to the
 statements are computed        appropriate direct cost
 accurately.                    basis and is supported by
                                the official accounting
                                records.


 Direct and overhead costs      Institute procedures to      12/31/96      AD/PS
 included in the quarterly      ensure that all future
 reports are reconciled to      financial information used
 information in the             in the Quarterly Report is
 accounting billing statement   reviewed by appropriate
 and the official accounting    Headquarters and Finance
 system and reviewed by         Center officials.
 either headquarters or
 Finance Center staff before
 the quarterly reports are
 provided to the Republic of
 Indonesia and the
 International Bank for
 Reconstruction and
 Development.
                                                                APPENDIX 1
                                                                Page 4 of 4




All program staff comply        Develop a joint internal      12/31/96    AD/PS
with the terms and              memorandum which: (1)                     AD/FA
conditions of the technical     establishes written
assistance agreement            guidance for calculation of
pertaining to the calculation   administrative overhead
of administrative overhead      and; (2) provides a process
costs and preparation of the    that ensures that program
quarterly reports.              staff are informed of the
                                terms and conditions of
                                administrative overhead
                                calculation and preparation
                                of Quarterly Reports.




                                         9
                                                      APPENDIX 2




         STATUS OF AUDIT REPORT RECOMMENDATIONS



Finding/Recommendation
      Reference              Status            Action Required

    1, 2, and 3          Resolved;         No further response to the
                         not implemented   Office of Inspector General
                                           is required. The
                                           recommendations will be
                                           referred to the Assistant
                                           Secretary for Policy,
                                           Management and Budget for
                                           tracking of implementation.




                                10
Sending written documents to:                                Calling:


                   Within the Continental United States




                  Outside the Continental United States


                                 Caribbean Region

U.S. Department of the Interior                        (703) 235-9221
Office of Inspector General
Eastern Division- Investigations
1550 Wilson Boulevard
Suite 410
Arlington, Virginia 22209


                                North Pacific Region

U.S. Department of the Interior                        (700) 550-7428 or
Office of Inspector General                            COMM 9-011-671-472-7279
North Pacific Region
238 Archbishop F.C. Flores Street
Suite 807, PDN Building
Agana, Guam 96910
